                                                    OFFICE OF INSPECTOR GENERAL
                                                                             MEMORANDUM




DATE:           August 1, 2000

TO:             Chairman

FROM:           Inspector General

SUBJECT:        Report on Audit of the Federal Communications Commission (FCC) Civil
                Monetary Penalty Program

The Office of Inspector General (OIG) has completed an audit of the Commission’s Civil
Monetary Penalty Program. A copy of our Audit Report, entitled “Report on Audit of the
Federal Communications Commission (FCC) Civil Monetary Penalty Program” is attached for
your review and comment. The objective of this review was to determine if the Commission has
established an effective program for managing civil monetary penalties. To conduct this review,
we examined all aspects of the process by which the Commission manages civil monetary penalty
actions.

Based on the results of the audit, the auditors have concluded that the Commission has not
established an effective program for managing civil monetary penalty actions. Specifically, we
determined that the information system used to track civil monetary penalty cases, the Fines and
Forfeitures Tracking System (FFTS), does not accurately track and report the status of civil
monetary penalty actions. We identified several factors that contribute to the poor quality of data
in the FFTS. These include: (1) lack of policies and procedures for monitoring the status of
penalties and governing use of the FFTS to track forfeiture data; (2) FFTS is not updated in a
timely and accurate manner; (3) Bureaus are not providing timely and accurate status information;
and (4) weaknesses exist in the structure of the FFTS.

An effective system for maintaining information on and monitoring the status of civil monetary
penalties is essential for ensuring that all debts resulting from fines and forfeitures are collected in
an efficient and effective manner. Failure to effectively manage civil monetary penalties may
result in loss of revenue for the federal government and may undermine the overall effectiveness
of Commission enforcement efforts.

On March 24, 2000, we provided a draft report to the Managing Director, General Counsel, and
each Bureau Chief summarizing the results of our review and requesting their comments on the
reported findings. In May 2000, the Commission re-convened the Civil Monetary Penalty Task
Force. The Civil Monetary Penalty Task Force is comprised of representatives from the Office of
General Counsel, Office of Managing Director, Common Carrier Bureau, Enforcement Bureau,
International Bureau, Mass Media Bureau, and Wireless Telecommunications Bureau. On July
28, 2000, the Civil Monetary Penalty Task Force provided a response to our Draft Audit Report.
In their response, the Task Force indicated that they concurred with each of our recommendations
and that they were in the process of implementing a plan of corrective action. A copy of the task
force response is included as Appendix 2 to our audit report.

We would be happy to meet with you to discuss the results of this audit. If you have any
questions, please contact me at 418-0476.




                                            H. Walker Feaster III


Attachment

cc:    Chief of Staff
       Managing Director
       General Counsel
       Chief, Cable Services Bureau
       Chief, Common Carrier Bureau
       Chief, Enforcement Bureau
       Chief, International Bureau
       Chief, Mass Media Bureau
       Chief, Wireless Telecommunications Bureau
       Chief Financial Officer
       Associate Managing Director, Performance Evaluation and Records Management
     FEDERAL COMMUNICATIONS
           COMMISSION
             OFFICE OF INSPECTOR GENERAL




                         Report on Audit of the
              Federal Communications Commission (FCC)
                    Civil Monetary Penalty Program

                        Audit Report No. 00-AUD-01-05
                                August 1, 2000


_____________________________                    ______________________________
      H. Walker Feaster III                              Thomas D. Bennett
       Inspector General                         Assistant Inspector General - Audits
          Report on Audit of the Federal Communications Commission (FCC)
                          Civil Monetary Penalty Program



                                 Table of Contents



                                                                                   Page



EXECUTIVE DIGEST ……………………………………………………………..                                           1


AUDIT OBJECTIVE ……………………………………………………………….                                            5


AUDIT SCOPE ……………………………………………………………………..                                             5


BACKGROUND ……………………………………………………………………                                                6


FINDING         The Fines and Forfeitures Tracking System (FFTS) does not
                accurately track and report the status of civil monetary penalty
                actions ………………………………………………..…………..                                   8


APPENDIX 1 - Fines and Forfeitures Tracking System (FFTS) Data Elements


APPENDIX 2 - Response to the Draft Audit Report from the Civil Monetary Penalty
             Task Force




                                         1
                                     EXECUTIVE DIGEST

The Communications Act of 1934 authorizes the Federal Communications Commission
(FCC) to use civil monetary penalties as a means of enforcing Commission rules and
regulations. The FCC can assess civil monetary penalties against those who violate
Commission rules and regulations through either (1) an informal administrative process
or (2) a formal evidentiary hearing. In the more commonly used administrative process,
the Commission issues a Notice of Apparent Liability (NAL) which gives the charged
party an opportunity to litigate the alleged violation and the proposed amount of the
monetary penalty in a paper proceeding. Based on the pleadings submitted and the
extenuating or aggravating circumstances presented, the Commission may then issue a
Notice of Forfeiture (NOF), which sets the amount due. If the charged party refuses to
pay the forfeiture, the Commission refers the matter to the Department of Justice for
collection in district court where the charged party is entitled to a “trial de novo 1” as to
both liability and amount of forfeiture. The Commission may also assess a penalty after
issuing a notice and conducting a full evidentiary hearing before an administrative law
judge. After exhausting its administrative remedies, the charged party is entitled to seek
judicial review in the United States Court of Appeals. If the violator refuses to pay the
forfeiture after the Commission’s decision has become final the Commission must ask the
Department of Justice (DOJ) to initiate a collection action in federal district court.
However, unlike the informal NAL/NOF paper process, the collection action here is on a
debt that is due and payable to the government.

For the period from Fiscal Year (FY) 1995 through the second quarter of FY 19992,
Commission records indicate that three hundred seventy-five (375) civil monetary
penalty actions with a total dollar value of $27,342,500 were initiated. For those
transactions initiated during this period, the Commission reports collections totaling
$6,364,650 and some level of monetary collection on two hundred thirteen (213) of the
three-hundred seventy-five (375) actions. During the period from October 1997 through
May 7, 1999, the Commission’s Office of General Counsel (OGC) reports that fourteen
(14) cases with a total dollar value of $5,805,000 have been referred to the Department of
Justice. OGC reports that an additional sixty-four (64) civil monetary penalty actions are
being tracked in preparation for referral if matters are not resolved (e.g., corresponding
with violator, held pending adjudication in another case, etc.).

The objective of this review was to determine if the Commission has established an
effective program for managing civil monetary penalties. To conduct this review, we
examined all aspects of the process by which the Commission manages civil monetary
penalty actions. As a result of our audit, we determined that the Commission has not
established an effective program for managing civil monetary penalty actions.
Specifically, we determined that the information system used to track civil monetary
penalty cases, the Fines and Forfeitures Tracking System (FFTS), does not accurately
track and report the status of civil monetary penalty actions. As part of our audit, we
1
       In a “trial de novo” the merits of the case, including the validity of the underlying FCC order,
       would be at issue.
2
       The period from October 1, 1994 through March 31, 1999.


                                                    2
obtained copies of FFTS reports summarizing all Commission civil monetary penalty
activity for which the system is tracking information. Using a combination of judgmental
and statistical sampling techniques, we selected seventy (70) civil monetary penalty cases
for detailed review. We then obtained copies of Bureau case files and case files
maintained within the Credit and Debt Management Center (CDMC) and compared the
source documents contained in those files to the information contained in FFTS to
determine the accuracy of the information contained in the system. We identified a
significant number of discrepancies between information contained in the FFTS and
source documentation contained in Bureau and/or CDMC case files.

In addition to performing a detailed review of cases selected from the FFTS, we
examined all cases reported in the FFTS as having been referred to Office of General
Counsel or the Department of Justice. The objective of this testing was to determine if
cases referred to the Department of Justice were being adjudicated in a timely fashion and
if information about the resolution of these cases was accurately reported in the FFTS.
To perform our testing, we attempted to trace cases to a report provided by OGC, entitled
“Open Forfeiture Cases” and dated May 5, 1999, to determine case status. During the
tracing process, we identified civil monetary penalty actions reported as having been
referred to OGC and/or DOJ in FFTS for which we were unable to find any record in the
“Open Forfeiture Cases” document. In addition, we identified civil monetary penalty
actions reported in the “Open Forfeiture Cases” document that were not reported as
having been referred to OGC and/or DOJ in the FFTS.

We identified several factors that contribute to the poor quality of data in the FFTS.
These include:

    •   Lack of policies and procedures for monitoring the status of penalties and
        governing use of the FFTS to track forfeiture data.
    •   The CDMC is not updating the FFTS in a timely and accurate manner.
    •   Bureaus are not providing timely and accurate civil monetary penalty status
        information to the CDMC.
    •   Weaknesses exist in the structure of the FFTS.

An effective system for maintaining information on and monitoring the status of civil
monetary penalties is essential for ensuring that all debts resulting from fines and
forfeitures are collected in an efficient and effective manner. Failure to effectively
manage civil monetary penalties may result in loss of revenue for the federal government
and may undermine the overall effectiveness of Commission enforcement efforts. During
our review, we examined the backlog of civil monetary penalty actions and concluded
that, in many cases, the Commission has not processed civil monetary penalty actions in a
timely fashion. We performed detailed reviews of cases reported in the FFTS as having
been referred to OGC or DOJ and high dollar civil monetary penalty actions that exceed
the statute of limitations3. In both of these analyses, we identified a significant number of
unresolved actions in the FFTS for which the Commission has taken no action, or has no
3
        As part of this test, we examined civil monetary penalty cases with a dollar value greater than
        $10,000 that had no reported activity in the FFTS since September 30, 1995.


                                                    3
record of action being taken, for a period exceeding the statutory limitation of five (5)
years4.

It should be noted that during the period this review was being conducted, several events
took place that will likely improve the Commission’s civil monetary penalty management
program.

§   First, on November 8, 1999, the Commission created two new Bureaus, the
    Enforcement Bureau and the Consumer Information Bureau, and consolidated most
    Commission enforcement activities within the Enforcement Bureau5. In part, this
    reorganization was conducted in recognition of the critical importance of enforcement
    as part of the Commission’s transition from industry regulator to market facilitator.
    The press release announcing the reorganization notes that the change will “enhance
    the FCC’s ability to serve the public by improving the effectiveness of the agency’s
    enforcement program in an increasingly competitive communications marketplace.”

§   Secondly, on November 23, 1999, the Managing Director announced the adoption of
    new Procedures for Tracking NAL and Forfeiture Orders. These procedures, which
    became effective on December 1, 1999, were being circulated for comment during the
    period our review was being conducted.

§   Thirdly, on August 31, 1999, the GAO issued a report entitled
    “TELECOMMUNICATIONS: FCC Does Not Know if All Required Fees Are
    Collected” [GAO/RCED-99-216]. The primary focus of this review was to examine
    the Commission’s program to determine if the Commission collects all required
    regulatory and application fees. As part of the review, GAO examined data on civil
    monetary penalties assessed and collected during fiscal years 1997 and 1998.
    Following the examination of civil monetary penalty data, GAO auditors determined
    that the Commission did not have reliable data on penalty collections and concluded
    that “(w)ithout complete and accurate data, we could not reach any conclusions about
    the effectiveness of FCC’s collection of civil monetary penalties.” In their report,
    GAO recommended that the Commission “(c)onduct an audit of FCC’s data on the
    status of civil monetary penalties to correct any data errors and internal control
    weaknesses that may have led to errors before incorporating these data into FCC’s
    planned new financial system.” The Commission concurred with this
    recommendation and stated that it will be made part of the “strategy to improve
    financial management over fee collections, tracking and reporting of receivables and
    collection of enforcement actions.”


4
       As part of the DOJ referral review process, the OGC reviews the case file to determine whether
       the statute of limitations in either 47 U.S.C § 503(b)(6) or 28 U.S.C. § 2462 has expired. As a
       practical matter, OGC will not refer a case to DOJ when more than five (5) years have passed
       since the date of the last Commission order.
5
       Certain enforcement activities will remain in existing bureaus. For example, the Mass Media
       Bureau will have primary responsibility for children’s television programming, political and
       related programming matters and equal opportunity matters and the Common Carrier Bureau will
       have primary responsibility for common carrier accounting and related requirements.


                                                  4
In May 2000, the Commission re-convened the Civil Monetary Penalty Task Force. The
Civil Monetary Penalty Task Force is comprised of representatives from the Office of
General Counsel, Office of Managing Director, Common Carrier Bureau, Enforcement
Bureau, International Bureau, Mass Media Bureau, and Wireless Telecommunications
Bureau. On July 28, 2000, the Civil Monetary Penalty Task Force provided a response to
our Draft Audit Report. In their response, the Task Force indicated that they concurred
with each of our recommendations and that they were in the process of implementing a
plan of corrective action. Excerpts from the Civil Monetary Penalty Task Force response
are incorporated under the appropriate audit recommendation. A copy of the entire
response is included as Appendix 2 to this report.




                                          5
AUDIT OBJECTIVE

The objective of this review was to determine if the Commission has established an
effective program for managing civil monetary penalties. Specifically, the objectives of
the review were to (1) determine if civil monetary penalty actions are accurately tracked
and reported, (2) determine if civil monetary penalty case files adequately support
reported actions, and (3) determine if actions were processed in a manner consistent with
Commission procedures.

AUDIT SCOPE

The audit was conducted in accordance with Generally Accepted Government Auditing
Standards, and included such analysis, interviews and testing as required to support the
audit findings.

The scope of this audit included all aspects of Commission management of civil
monetary penalties. The review examined all phases of the program from notification of
violation through the collection of fines. In addition, the review included an examination
of cases referred to the Department of Justice. As part of the review, we:

   §   Conducted research to obtain a complete understanding of the civil monetary
       penalty management process. The scope of this research included all phases of
       the civil monetary penalty lifecycle including the management of actions referred
       to the Department of Justice.

   §   Performed a detailed assessment of civil monetary penalty case files. This
       assessment included an examination of records maintained by those organizations
       initiating the actions and the Credit and Debt Management Center (CDMC) for
       managing the collection process.

   §   Conducted a detailed analysis of the “backlog” of civil monetary penalty actions.
       This analysis included an examination of all high-dollar (those greater than
       $10,000) civil monetary penalty actions initiated prior to FY 1995 that have not
       been resolved according to CDMC records.

   §   Conducted a detailed analysis of all civil monetary penalty actions reported by
       CDMC records as having been referred to OGC or to the Department of Justice.

Audit fieldwork was performed within the Office of the Managing Director, Common
Carrier Bureau, Compliance and Information Bureau, International Bureau, Mass Media
Bureau, Office of General Counsel, and Wireless Telecommunications Bureau from April
1999 through December 1999.




                                            6
BACKGROUND

Civil monetary penalties represent one of the primary means by which the Federal
Communications Commission (FCC) enforces compliance with Commission rules and
regulations. The Communications Act of 1934, under which the Commission was
created, establishes the authority by which the Commission assesses civil monetary
penalties. Title V of the Communications Act of 1934, hereinafter referred to as “the
Act”, establishes provisions for assessing fines and forfeiting communications equipment
for violation of Commission rules and regulations. The Commission’s guidelines for
assessing civil monetary penalties are contained in Section 1.80 of the Commission’s
Rules [47 CFR § 1.80] entitled “Forfeiture proceedings.” Sections 503 and 504 of the
Communications Act, 47 U.S.C. § 503, 504 authorize the FCC to follow either of two
courses in assessing and collecting forfeitures. The usual course is for the Commission to
issue a Notice of Apparent Liability (NAL), which gives the charged party an opportunity
to litigate the alleged violation and the tentative amount of the forfeiture in a paper
proceeding. Based on the pleadings submitted and the extenuating or aggravating
circumstances presented, the Commission may then issue a Notice of Forfeiture (NOF),
which sets the amount due. If the charged party refuses to pay the forfeiture, the
Commission must ask the Department of Justice to institute a civil suit in federal district
court where the charged party is entitled to a “trial de novo” as to both liability and
amount of forfeiture.

As an option to pursuing the informal NAL/NOF paper proceeding, the Commission may
designate the matter for a hearing before an Administrative Law Judge (ALJ), who tries
the issues of liability and amount of forfeiture. After exhausting its administrative
remedies, the charged party is entitled to seek judicial review in the United States Court
of Appeals. If the violator refuses to pay the forfeiture after the Commission’s decision
has become final, the Commission must ask the Department of Justice to initiate a
collection action in federal district court. However, unlike the informal NAL/NOF paper
process, the collection action here is on a debt that is due and payable to the government.

For the period from Fiscal Year (FY) 1995 through the second quarter of FY 19996,
Commission records indicate that three hundred seventy-five (375) civil monetary
penalty actions with a total dollar value of $27,342,500 were initiated. For those
transactions initiated during this period, the Commission reports collections totaling
$6,364,650 and some level of monetary collection on two hundred thirteen (213) of the
three hundred seventy-five (375) actions. The Commission’s Office of General Counsel
(OGC) reports that, from the period of October 1997 through May 7, 1999, fourteen (14)
cases with a total dollar value of $5,805,000 had been referred to the Department of
Justice and an additional sixty-four (64) civil monetary penalty actions are being tracked.

It should be noted that during the period this review was being conducted, several events
took place that will likely improve the Commission’s civil monetary penalty management
program. First, on November 8, 1999, the Commission created two new Bureaus, the
Enforcement Bureau and the Consumer Information Bureau, and consolidated most
6
       This represents the period from October 1, 1994 through March 31, 1999.


                                                 7
Commission enforcement activities within the Enforcement Bureau7. In part, this
reorganization was conducted in recognition of the critical importance of enforcement as
part of the Commission’s transition from industry regulator to market facilitator. The
press release announcing the reorganization notes that the change will “enhance the
FCC’s ability to serve the public by improving the effectiveness of the agency’s
enforcement program in an increasingly competitive communications marketplace.”
Secondly, on November 23, 1999, the Managing Director announced the adoption of new
Procedures for Tracking NAL and Forfeiture Orders. These procedures, which became
effective on December 1, 1999, were being circulated for comment during the period our
review was being conducted.

In addition to internal efforts to improve management of enforcement actions, the
General Accounting Office (GAO) examined the Commission’s fee collection program.
On August 31, 1999, the GAO issued a report entitled “TELECOMMUNICATIONS:
FCC Does Not Know if All Required Fees Are Collected” [GAO/RCED-99-216].” The
primary focus of this review was to examine the Commission’s program to determine if
the Commission collects all required regulatory and application fees. As part of the
review, GAO examined data on civil monetary penalties assessed and collected during
fiscal years 1997 and 1998. Following the examination of civil monetary penalty data,
GAO auditors determined that the Commission did not have reliable data on penalty
collections and concluded that “(w)ithout complete and accurate data, we could not reach
any conclusions about the effectiveness of FCC’s collection of civil monetary penalties.”
In their report, GAO recommended that the Commission “(c)onduct an audit of FCC’s
data on the status of civil monetary penalties to correct any data errors and internal
control weaknesses that may have led to errors before incorporating these data into
FCC’s planned new financial system.” The Commission concurred with this
recommendation and stated that it will be made part of the “strategy to improve financial
management over fee collections, tracking and reporting of receivables and collection of
enforcement actions.”




7
       Certain enforcement activities will remain in existing bureaus. For example, the Mass Media
       Bureau will have primary responsibility for children’s television programming, political and
       related programming matters and equal opportunity matters and the Common Carrier Bureau will
       have primary responsibility for common carrier accounting and related requirements.


                                                8
Finding -       The Fines and Forfeitures Tracking System (FFTS) does not accurately
                track and report the status of civil monetary penalty actions.

The Credit and Debt Management Center (CDMC), within the Commission’s Office of
Managing Director (OMD), uses an information system called the Fines and Forfeitures
Tracking System (FFTS) to track the status of civil monetary penalty actions. Each
month an FFTS report is prepared summarizing civil monetary penalty information for
each Bureau. A copy of each monthly report, entitled “Forfeiture Tracking System Aged
Receivables”, is forwarded to each Bureau for review. The Bureaus are instructed to
review the report, annotate the report to indicate changes, and return the report to CDMC.
In addition, Bureaus are instructed to provide documentation to CDMC when the status
of a civil monetary penalty changes. CDMC is responsible for updating the FFTS to
reflect changes indicated on the returned “Forfeiture Tracking System Aged Receivables”
reports and other documents provided by the Bureaus. As a result of our audit, we
determined that the Fines and Forfeitures Tracking System (FFTS), does not accurately
track and report the status of civil monetary penalty actions.

As part of our audit, we obtained copies of FFTS reports summarizing all Commission
civil monetary penalty activity for which the system is tracking information. Using a
combination of judgmental and statistical sampling techniques, we selected seventy (70)
civil monetary penalty cases for detailed review. The objective of our testing was to
determine if information contained in the FFTS was adequately supported by source
documents and to determine if information contained in CDMC case files was supported
by Bureau case files. We then obtained copies of Bureau case files and case files
maintained by CDMC and compared the source documents contained in those files to the
information contained in FFTS to determine the accuracy of the information contained in
the system. We identified a significant number of discrepancies between information
contained in the FFTS and source documentation contained in Bureau and/or CDMC case
files. For example, we identified the following discrepancies:

    §   In thirteen (13) out of the seventy (70) civil monetary actions selected for detailed
        review we identified differences between the “Billings and Collections Number8”
        used to record the transaction in the FFTS and the number on supporting
        documents. The accurate use of this number is critical in tracking a civil
        monetary penalty action because it is, in many cases, the single unique reference
        number.

    §   In thirty-four (34) out of the seventy (70) actions selected for detailed review we
        determined that the information in the FFTS was not accurate based on our
        examination of source documents contained in the Bureau and/or CDMC case
        files. Most frequently, we would identify documentation relating to the litigation
        of alleged violation and proposed forfeiture (e.g., Petition for Reconsideration,
        Request for Mitigation, etc.) that would not be reflected in the FFTS. However,

8       The Billings and Collections Number is the primary account number used to record the action in
        the Fines and Forfeitures Tracking System. During our review, we identified instances in which
        this number was also referred to as the “P.O. Number” and the “NAL/Acct. No.”


                                                   9
       in several cases we identified instances in which the FFTS did not accurately
       record Notices of Forfeiture associated with civil monetary penalty actions. In
       one case, the FFTS did not report a consent decree effectively closing the
       forfeiture action.

In addition to performing a detailed review of cases selected from the FFTS, we
examined all cases reported in the FFTS as having been referred to the Office of General
Counsel (OGC) or the Department of Justice (DOJ). The objective of this testing was to
determine if cases referred to the Department of Justice were being adjudicated in a
timely fashion and if information about the resolution of these cases was accurately
reported in the FFTS. To perform our testing, we identified all cases in the FFTS for
which the last reported action was referral to Office of General Counsel (FFTS
transaction code: OGC) or referral to the Department of Justice (FFTS transaction code:
DOJ). We then attempted to trace cases to a report provided by OGC, entitled “Open
Forfeiture Cases” and dated May 5, 1999, to determine case status. During the tracing
process, we identified the following conditions:

   §   Civil monetary penalty actions reported as having been referred to OGC and/or
       DOJ in FFTS for which we were unable to find any record in the “Open
       Forfeiture Cases” document.

   §   Civil monetary penalty actions reported in the “Open Forfeiture Cases” document
       that were not reported as having been referred to OGC and/or DOJ in the FFTS.

Based upon the conditions identified, we developed a spreadsheet listing of all referred
cases and asked OGC to research those cases and provide an accurate status of each case.
Of the ninety (90) civil monetary penalty cases for which the last reported action in the
FFTS was referral to OGC or referral to DOJ, OGC performed research and reported the
following results:

   §   Twenty-seven (27) cases have been closed as a result of a court judgment, DOJ
       declination, payment, or business closure (representing thirty percent (30%) of the
       referred cases). Many of these are cases that have been resolved for several years
       for which the FFTS has not been updated.

   §   OGC reported that they have “No Record” of twenty-seven (27) of the ninety (90)
       cases reported in the FFTS as having been referred (representing thirty percent
       (30%) of the referred cases). Many of these are cases that were initiated in FY
       1991 or before and remain unresolved.

   §   Eleven (11) cases are reported as “pending”.

   §   Eight (8) cases are on hold pending court decision on another case.




                                           10
Several Factors Have Contributed To The Weaknesses Identified In The Commission’s
Fines and Forfeitures Tracking System (FFTS).

Our audit disclosed several factors that contribute to the inaccuracies in the FFTS.
Together, these issues result in erroneous data and deficiencies in civil monetary penalty
management.

   §   The Commission did not have adequate policies and procedures for monitoring
       the status of penalties and governing use of the FFTS to track forfeiture data
       during the period that fieldwork was performed on this audit. The Commission
       policy governing forfeiture tracking, FCC Directive 1157.1 entitled “Forfeiture
       Tracking, Collections and Follow-Up System”, was effective from April 1, 1992
       through March 31, 1995. In addition, the Directive assumed that “a centralized,
       automated NAL/Forfeiture tracking system will be in place when this Directive is
       issued.” This centralized system was never implemented. Instead, interim
       instructions provided in the Directive governed management of forfeiture
       tracking.

   §   The organization responsible for maintaining and updating the FFTS, the Credit
       Management Data Center (CMDC), is not updating the FFTS in a timely and
       accurate fashion. We identified several cases in which information contained in
       CDMC case files was not accurately reflected in the FFTS.

   §   Bureaus are not providing timely and accurate civil monetary penalty status
       information to the CDMC. We identified numerous cases in which information
       contained in Bureau civil monetary penalty case files did not agree with files
       maintained by the CDMC. This condition appears to be caused, at least in part,
       by a lack of uniform requirements for documentation that should be included in a
       case file.

   §   The FFTS does not provide meaningful, user friendly information on the status of
       civil monetary penalty actions. For example, the system reporting mechanism
       does not produce a report that identifies only open actions for a given fiscal year.
       Therefore, the user must review each reported item for a given fiscal year to
       identify open items. Further, the system employs a series of codes to describe the
       various actions that occur in the lifecycle of a civil monetary penalty action (e.g.,
       Notice of Apparent Liability, Notice of Forfeiture, etc.). In our opinion, these
       codes are difficult to interpret and subject to misinterpretation. See Appendix 1
       for a listing of the data elements used in FFTS.

   §   The Commission has not established uniform standards for case file composition.
       As a result, case file composition has been left to the discretion of the Bureaus
       and Offices initiating civil monetary penalty actions. The resulting differences in
       content and format makes comparisons, follow up efforts, and tracking more
       difficult.



                                            11
   §   As a result of the errors in the data and the difficulty in working with the FFTS,
       many users and managers have lost confidence in FFTS information. This has led
       to the development of “home-grown” systems used by Bureaus and Offices to
       track civil monetary penalties, which also degrades the efficient and effective
       management of the program.

Effective Regulatory Enforcement Requires Timely Collection of Monetary Penalties.

One of the Commission’s most important mission functions is to ensure compliance with
its rules and regulations. Violation of Commission rules can disrupt the orderly provision
of telecommunication services and compromise public safety. The authority to assess
civil monetary penalties against those who violate Commission regulations is a critical
enforcement tool. Failure to effectively manage civil monetary penalties may result in
loss of revenue for the federal government and may undermine the overall effectiveness
of Commission enforcement efforts.

In addition to its importance from a mission standpoint, timely collection of civil
monetary penalties is a fiscal responsibility. Office of Management and Budget (OMB)
Circular No. A-129, entitled “ Policies for Federal Credit Programs and Non-Tax
Receivables”, establishes policies for managing Credit Programs and Federal
Government receivables. Section IV. of the Circular, entitled “Managing The Federal
Governments Receivables”, states that “(t)he Government must service and collect debts,
including defaulted guaranteed loans acquired by the Government, in a manner that best
protects the value of the Government’s assets.” In addition the Circular states that
“(m)echanisms must be in place to collect and record payments and provide accounting
and management information for effective stewardship.”

Inadequate Information on Civil Monetary Penalties Results in Decreased Effectiveness
of Commission Enforcement and Revenue.

To effectively manage civil monetary penalty actions, Commission management requires
timely and accurate information about each action. In addition, current, accurate, and
complete case information is required for civil monetary penalty cases that are referred to
the Department of Justice for adjudication. Civil monetary penalties are a critical
component of the Commission’s enforcement program. The inability to maintain good
information on the status and results of civil monetary penalty actions erodes the
Commission’s ability to enforce regulations.

The extensive backlog of high dollar actions and cases that have been closed due to
exceeding the statute of limitations represents a loss of revenue collections. Without
complete, timely, and reliable information, Commission management may fail to pursue
cases in a timely manner, may use resources ineffectively, and may ultimately fail to
collect revenues duly owed the federal government.




                                            12
Recommendations

As indicated previously in this report, several events took place during the period that this
review was being conducted that will likely improve the Commission’s civil monetary
penalty management program. We have indicated that those cases where we believe
those specific actions being taken may address the stated recommendation.

Recommendation 1 of 3

The Commission should conduct a comprehensive review of information reported in the
FFTS and address erroneous and inconsistent data. This review should include the
participation of all affected Commission Bureaus and Offices, the Office of Managing
Director, and the Office of general Counsel. To ensure this clean-up effort is performed
efficiently, we suggest that one office be designated as lead for ensuring that the
appropriate staff reviews all records and corrections are initiated.

Management Response

The Civil Monetary Penalty Task Force concurred with the recommendation and stated
that they contracted with Ernst and Young to “perform a comprehensive review of the
information reported in the existing system before data conversion to the new Revenue
Accounting and Management Information System (RAMIS).”

Recommendation 2 of 3

The Commission issued new procedures for tracking civil monetary penalties on
November 23, 1999. We recommend that the Commission take steps to ensure that these
procedures were properly implemented and are being enforced. In addition, we
recommend that the Commission establish a quarterly FFTS review and certification
process. The process should include quarterly meetings between the CDMC and Bureaus
to review the accuracy of FFTS information and certification of accuracy by the Bureau
Chief following the review.

Management Response

The Civil Monetary Penalty Task Force concurred with the recommendation and stated
that they have initiated a review of the recently implemented procedures.

Recommendation 3 of 3

The Commission should establish standards for civil monetary penalty case files. These
standards should address both content and organization of documents. We also suggest
that these standards be coordinated with the Department of Justice, to ensure that the
documentation we are maintaining supports their needs for administrative and legal
proceedings.



                                             13
Management Response

The Civil Monetary Penalty Task Force concurred with the recommendation and agreed
to establish standards for civil monetary penalty case files. Further, the Task Force
reported that they have tasked Ernst and Young with providing recommendations on the
standards for the civil monetary penalty case files.




                                          14
                                                                               Appendix 1
                                                                               Page 1 of 1

               Fines and Forfeitures Tracking System (FFTS) Data Elements

The Fines and Forfeitures Tracking System (FFTS) is a standalone PC-based system
using Peachtree Accounting software that is intended to track all relevant information
about each civil monetary penalty action. The System includes the following information
about each civil monetary penalty action.

   §     Violator’s Name and Address
   §     FCC Official initiating the forfeiture action
   §     Outstanding Balance
   §     Aging Information
   §     Date, Amount, and Type of Transaction

In addition, the system employs a series of codes to describe the various actions that
occur in the lifecycle of a civil monetary penalty action (e.g., Notice of Apparent
Liability, Notice of Forfeiture, etc.). The types of transactions (and corresponding
tracking system notation) include:

                                                                        Transaction
                                 Transaction                               Code
       Notice of Apparent Liability Issued                                 NAL
       Notice of Forfeiture Issued                                         NOF
       Collection Action Suspended                                         SUS
       Suspension Cancelled – Resume Collection                            CSU
       Referred to Office of General Counsel                               OGC
       Referred to Department of Justice                                   DOJ
       1st Dunning Letter Issued                                           DL1
       2nd Dunning Letter Issued                                           DL2
       3rd Dunning Letter Issued                                           DL3
       Debt Written Off                                                    WRT
       Bankruptcy                                                          BNK
       Account Cancelled                                                   CAN
       Account was Mitigated                                               MIT
       Petition/Request for Reconsideration/Review Received                RFC
       Petition/Request for Mitigation Received                            RFM
       Refund                                                              REF
       Closed                                                              CLS
       Paid in Full                                                        PDF
       Partial Payment                                                     PAR
       Installment Agreement                                               INS
       Bad Check                                                           BCK
       Collected by DOJ                                                    COJ



                                              15
